, United States v. Lall, — Fed.Appx. — (2021)

2021WL IIO354I
Only the Westlaw citation is currently available.
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued
on or after Jan. 1,2007. See also U.S.Ct. of
Appeals 3rd Cir. App. I, IOP 5.1,5.3, and 5.7.
United States Court of Appeals, Third Circuit.

Affirmed.

West Headnotes (6)

[11

Government did not commit Brady violation in
prosecution for conspiracy to distribute cocaine
and related money laundering and currency
structuring offenses by failing to preserve and
disclose rough notes related to defendant's
first two proffer interviews; defendant did not
establish any such notes were taken and not
disclosed to defense, and even if such notes
existed, he made no tangible showing the
notes contained exculpatory information. U.S.
Const. Amend. 5; Comprehensive Drug Abuse
Prevention and Control Act of 1970 § 406, 21
U.S.C.A. § 846.

UNITED STATES of America
v.

Khamraj LALL, Appellant
No. 19-3290
Submitted Pursuant to Third Circuit
LA.R. 34.1(a) on December 11, 2020
(Opinion filed: March 23,2021)
Synopsis
Background: Defendant was convicted in the United States
District Court for the District of New Jersey, No. 3-17cr-00343-1, Anne E. Thompson, Senior Judge, of conspiracy
to distribute cocaine and related money laundering and
currency structuring offenses, and was sentenced to 156
months' imprisonment. Defendant appealed.

[2]

[1] government did not commit Brady violation by failing to
preserve and disclose rough notes related to defendant's first
two proffer interviews;

[3] evidence supported defendant's conviction for conspiracy
to distribute cocaine; and
[4] trial judge's interruptions of defense's cross-examination
of witnesses did not violate defendant's Sixth Amendment
right to confrontation.

Criminal Law <.-•
Probative value of evidence of 17 kilograms of
cocaine was not outweighed by its prejudicial
effect and, thus, was admissible in prosecution
for conspiracy to distribute cocaine and related
money laundering and currency structuring
offenses; evidence of seized drugs could be
highly probative and relevant to establishing
a defendant's involvement in drug conspiracy,
and one ofdefendant's co-conspirators connected
him to cocaine by stating defendant stored
cocaine at home of person from whom it was
seized. Comprehensive Drug Abuse Prevention
and Control Act of 1970 § 406, 21 U.S.C.A. §
846; Fed. R. Evid. 403.

Holdings: The Court of Appeals, McKee, Circuit Judge, held
that:

[2] probative value of evidence of 17 kilograms of cocaine
was not outweighed by its prejudicial effect and, thus, was
admissible;

Criminal Law O

[3]

Criminal Law

Evidence that defendant and his co-conspirators
developed an elaborate cocaine distribution
operation was sufficient to show nexus
between defendant, co-conspirators and cocaine,
as required for defendant's conviction for
conspiracy to distribute cocaine. Comprehensive

WSSF-LAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

, United States v. Lall, — Fed.Appx. — (2021)

Drug Abuse Prevention and Control Act of 1970
§ 406,21 U.S.C.A. § 846.
OPINION*
[4]

Criminal Law ®=*
Trial judge's interruptions of defense’s crossexamination of witnesses did not violate
defendant's Sixth Amendment right to
confrontation in prosecution for conspiracy to
distribute cocaine and related money laundering
and currency structuring offenses, as judge
only inteqected to clarify defense counsel's
questions and mitigate any jury confusion. U.S.
Const. Amend. 6; Comprehensive Drug Abuse
Prevention and Control Act of 1970 § 406, 21
U.S.C.A. § 846.

[5]

Criminal Law
Trial court did not have duty to inform defendant
he had right to testify in his own defense in
prosecution for conspiracy to distribute cocaine
and related money laundering and currency
structuring offenses. U.S. Const. Amend. 5.

[6]

Criminal Law £=•
A defense motion is required to challenge pre­
indictment delay under Speedy Trial Act. 18
U.S.C.A. § 3162(a)(1).

On Appeal from the United States District Court for the
District of New Jersey, District Court No. 3-17-cr-00343-l,
District Judge: Honorable Anne E. Thompson

McKee, Circuit Judge.
*1 Khamraj Lall asks us to vacate his 156-month sentence
arising from his conviction for conspiracy to distribute
cocaine under 21 U.S.C. § 846, and related money laundering
and currency structuring offenses. We need only briefly
discuss each of his arguments to explain why we will affirm
the District Court's rejection of each of Lall's numerous claims
for relief. 1

I. Investigative Notes
[1] Lall argues that the Government committed a Brady
violation in failing to preserve and disclose rough notes
related to his first two proffer interviews.2 He relies upon our
admonition in Ramos in asking us to fashion a per se rule
requiring vacating a conviction whenever the Government
fails to preserve and disclose investigative notes without the
prerequisite of proving bad faith.3 However, Lall does not
establish that any such notes were taken and not disclosed
to defense. The Government asserts that it is unaware of
any notes beyond those already turned over to defense and
Lall offers nothing but legal argument and speculation to
contradict that assertion.
Moreover, even if such proffer notes did exist, Lall must
“raise at least a colorable claim” that the notes were
exculpatory and “that such exculpatory evidence has not been
included in any formal interview report provided” to establish
that a Brady violation occurred.4 He fails to do so. Lall
makes no tangible showing that rough notes for the first two
proffers (assuming they even existed) contained exculpatory
information.

Attorneys and Law Firms
Mark E. Coyne, Esq., Richard J. Ramsay, Esq., Office of
United States Attorney, Newark, NJ, for Plaintiff-Appellee
Savvy T. Darragh, Esq., Jason J. LeBoeuf, Esq., Ziegler
Zemsky & Resnick, Livingston, NJ, for Defendant-Appellant
Before: McKEE, PORTER, and FISHER, Circuit Judges

II. Admissibility of 17 Kilograms of Cocaine
Lall next contends that the District Court eired in admitting
17 kilograms of cocaine.5 He claims that the drugs were
irrelevant and unduly prejudicial, in part because there was
no direct evidence to link him to the drugs. However,
direct evidence is not required.6 Indeed, the elements of

WISTiAW © 2021 Thomson Reuters. Mo claim to original U.S. Government Works.

2

United States v. Lall, — Fed.Appx. — (2021)

drug conspiracies can be proven “entirely by circumstantial
evidence.”7

of witnesses.15 However, it is clear that Judge Thompson only
inteijected to clarify defense counsel's questions and mitigate
any jury confusion. This Court has repeatedly determined that

*2 [2] He also asserts that the probative value of the
drugs was substantially outweighed by the prejudice that
resulted. However, physical evidence of seized drugs can be
highly probative and relevant to establishing a defendant's

such conduct does not amount to reversible error.16

o

involvement in a drug conspiracy. “[Wjhen evidence is
highly probative, even a large risk of unfair prejudice may
be tolerable.”9 Lall stresses that, here, unlike in our decision
in Claxton, the Government did not establish a connection
between him and Chino, the person from whom the drugs
were seized.10 However, one ofhis co-conspirators connected
Lall to the drugs by testifying that Lall stored drugs at
Chino's home. As Judge Thompson correctly concluded, the
substantial probative value of the drugs that were admitted
outweighed any prejudice.

III. Conspiracy to Distribute Cocaine Conviction
Lall contends his conviction under 21 U.S.C. § 846 must be
vacated because the weight of the evidence does not establish
a nexus between him and the drugs that were admitted or
between him and the alleged co-conspirators.11 To convict of
conspiracy, the Government must prove that the conspirators
had: “(1) a shared unity of purpose; (2) an intent to achieve
a common illegal goal; and (3) an agreement to work toward
that goal.”12
[3] Here again, direct evidence is not required to demonstrate
a unity of purpose. Also, the jury was instructed that the
Government had to prove that “two or more persons” shared a
common goal; the Government was not required to show that
Lall knew everyone in the conspiracy.14 Given the extensive
testimony that Lall and the co-conspirators developed an
elaborate cocaine operation, it is impossible for us to conclude
that no reasonable jury could have been convinced of Lall's
membership in the charged conspiracy beyond a reasonable
doubt.

[SJ Nor did the Court err in not informing Lall that he had a
right to testify in his own defense.17 A court “has no duty to
explain to the defendant that he or she has a right to testify or
to verify that the defendant who is not testifying has waived
that right voluntarily.”18

V. Speedy Trial Act Claims
*3 For the first time on appeal, Lall raises two claims
under the Speedy Trial Act. First, he asks us to dismiss the
two structuring charges in the original complaint because
the Government did not indict him within 30 days of his
arrest pursuant to 18 U.S.C. § 3161(b). He also asks us to
dismiss the additional charges that the Government made
in its superseding indictment. He argues that because the
additional charges were made after the parties entered into
their last continuance, the 140 days that passed between
the superseding indictment and his trial also constitute non­
excludable time under the Speedy Trial Act.
The parties do not dispute that 145 days of non-excludable
delay occurred between Lall's arrest and his original
indictment. However, Lall did not move to dismiss these
charges in the District Court. He now urges us to dismiss
his structuring charges because 18 U.S.C. § 3162(a)(1) does
not contain the waiver provision present in 18 U.S.C. §
3162(a)(2). At first blush, the argument has some force.
However, several other Circuit Courts of Appeals have
interpreted the statute's plain language to mean that the
motion requirement in subsection (2)—prescribing time
limits to bring a defendant to trial—applies to the entirety of
the section. It therefore extends to subsection (1) of § 3162(a),
which establishes the time for bringing the indictment.19
We find that reasoning persuasive as it is consistent with
the Supreme Court's reasoning in Zedner v. United States.20
There the Court explained that the motion requirement in
3162(a)(2) serves two purposes:

IV. Right to Confrontation and the Right to Testify
[4] Lall argues that the District Court violated his
Sixth Amendment right to confrontation because Judge
Thompson often interrupted the defense's cross-examination

First, § 3162(a)(2) assigns the role of spotting violations
of the Act to defendants-for the obvious reason that they
have the greatest incentive to perform this task. Second,
by requiring that a defendant move before the trial starts

WllfFTMi? © 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Lall,

Fed.Appx. — (2021)

or a guilty plea is entered, § 3162(a)(2) both limits the
effects of a dismissal without prejudice (by ensuring that
an expensive and timeconsuming trial will not be mooted
by a late-filed motion under the Act) and prevents undue
defense gamesmanship.

1

[6] We agree and therefore conclude that a defense motion
is also required to challenge preindictment delay under §
3162(a)(1).22
We agree with Lall's contention that a Speedy Trial Act
violation occurred with respect to the additional charges
made in the superseding indictment and the Government
does not argue to the contrary. Thus, it is clear that the
added charges triggered a new speedy trial clock,23 for

which the Government should have sought a continuance.
However, since § 3162(a)(2) conditions dismissal upon a
defense motion, and since no defense motion was made, Lall
is not entitled to have the new counts in the superseding
indictment dismissed.

VL
*4 For the foregoing reasons, we will affirm the judgment
of conviction.

All Citations
— Fed.Appx. —, 2021 WL 1103541

Footnotes
This disposition is not an opinion of the full Court and under I.O.P. 5.7 does not constitute binding precedent.
The District Court had subject matter jurisdiction over this federal criminal case pursuant to 18 U.S.C. § 3231. We have
1
appellate jurisdiction under 28 U.S.C. § 1291.
The District Court's legal conclusions are reviewed de novo and its factual findings are reviewed for clear error. See
2
United States v. Ramos, 27 F.3d 65, 67 (3d Cir. 1994).
Appellant
Br. at 20 (“[Tjhere can be no better way to ensure that the Government gives genuine and unshakable credence
3
to this Court's clear directive than to institute a perse rule stating that this Circuit will no longer pursue a bad faith analysis
regarding the failure to preserve rough notes of witness interviews.”).
Ramos, 27 F.3d. at 71 (quoting United States v. Griffin, 659 F.2d 932, 939 (9th Cir. 1981)).
4
The District Court's decision to admit the evidence is reviewed for an abuse of discretion, and “such discretion is construed
5
especially broadly in the context of Rule 403.” United States v. Mathis, 264 F.3d 321, 326-27 (3d Cir. 2001).
See United States v. McNeill, 887 F.2d 448,450 (3d Cir. 1989) (“The fact that evidence is circumstantial does not make
6
it less probative than direct evidence”).
United States v. Gibbs, 190 F.3d 188, 197 (3d Cir. 1999) (holding that the Government could exclusively rely on
7
circumstantial evidence to support a conspiracy conviction).
See United States v. Claxton, 766 F.3d 280,302 (3d Cir. 2014) (affirming the District Court's decision to admit photographs
8
and seized drugs as probative and relevant evidence).
Id. (quoting United States v. Cross, 308 F.3d 308, 323 (3d Cir. 2002)).
9

10
11
12
13
14
15
16
17

Lall attempts to distinguish his case from Claxton on the grounds that in that case, “other testimony presented at trial
showed that [the defendant] was part of the same organization as the third person from whom the drugs were seized."
Appellant Br. at 34.
We review Lall's challenge to the sufficiency of the evidence “in the light most favorable to the prosecution to determine
whether any rational trier of fact could have found proof of guilt[ ] beyond a reasonable doubt.” United States v. CaraballoRodriguez, 726 F.3d 418,430 (3d Cir. 2013) (quoting United States v. Brodie, 403 F.3d 123,133 (3d Cir. 2005)).
Carabaiio-Rodriguez, 726 F.3d at 430.
See id. at 431.

App. 1497-99.
In the absence of a trial objection, we review the District Court's conduct for plain error. United States v. Bencivengo, 749
F.3d 205, 216 (3d Cir. 2014) (citing United States v. Nobel, 696 F.2d 231, 237 n.2 (3d Cir. 1982)).
Bencivengo, 749 F.3d at 216.
We review claims regarding the denial of a defendant's right to testify de novo. United States v. Gordon, 290 F.3d 539,
546 (3d Cir. 2002) (quoting United States v. Leggett, 162 F.3d 237, 245 (3d Cir. 1998)).

WiiTiAVU © 2021 Thomson Reuters. Wo claim to original U.S. Government Works.

4

United States v. Lall, --- Fed.Appx. — (2021)

18
19

20

21
22

23

United States v. Pennycooke, 65 F.3d 9,11 (3d Cir. 1995).
See, e.g., United States v. Hines, 694 F.3d 112,117-18 (D.C. Cir. 2012) ("Although the italicized waiver language appears
only In subsection (a)(2) (addressing tardy-trial dismissals) and not in subsection (a)(1) (addressing tardy-indictment
dismissals), as we observed in United States v. Bittle, 699 F.2d 1201 (D.C. Cir.1983), the waiver provision may well apply
to both subsections. See Bittle, 699 F.2d at 1207 n. 15").
547 U.S. 489, 126 S.Ct. 1976, 164 L.Ed.2d 749 (2006).
Id. at 502-03,126 S.Ct. 1976 (footnote omitted).
See Hines, 694 F.3d at 119 (“These same two purposes apply equally to dismissal of an indictment under section 3162(a)
(1). Without the waiver provision, a defendant has no incentive to police the government's compliance with the STA's
indictment deadlines. More importantly, without the waiver constraint a defendant may freely game the system by rolling
the dice on a trial and then seeking a section 3162(a)(1) dismissal for failure to timely indict—if he is unhappy with the
result—putting the prosecution and the court through the time, effort and expense of a trial that may subsequently be
mooted at the defendant's whim”).
See United States v. Lattany, 982 F.2d 866, 872 n.7 (3d Cir. 1992) (“If the subsequent filing charges a new offense that
did not have to be joined with the original charges, then the subsequent filing commences a new, independent speedy
trial period.").

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

WE5HAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Additional material
from this filing is
available in the
Clerk's Office.

